<html>
<title> - [H.A.S.C. No. 111-161]CLOSING THE GAP: ADDRESSING CRITICAL ROTARY WING SHORTFALLS FOR U.S. SPECIAL OPERATIONS FORCES IN FISCAL YEAR 2011 AND BEYOND</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




                         [H.A.S.C. No. 111-161]

 
 CLOSING THE GAP: ADDRESSING CRITICAL ROTARY WING SHORTFALLS FOR U.S. 
        SPECIAL OPERATIONS FORCES IN FISCAL YEAR 2011 AND BEYOND

                               __________

                                HEARING

                               BEFORE THE

   SUBCOMMITTEE ON TERRORISM, UNCONVENTIONAL THREATS AND CAPABILITIES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             APRIL 27, 2010

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

                  U.S. GOVERNMENT PRINTING OFFICE
58-310                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1c7b6c735c7f696f687479706c327f737132">[email&#160;protected]</a>  
                                     
  


   SUBCOMMITTEE ON TERRORISM, UNCONVENTIONAL THREATS AND CAPABILITIES

                LORETTA SANCHEZ, California, Chairwoman
ADAM SMITH, Washington               JEFF MILLER, Florida
MIKE McINTYRE, North Carolina        FRANK A. LoBIONDO, New Jersey
ROBERT ANDREWS, New Jersey           JOHN KLINE, Minnesota
JAMES R. LANGEVIN, Rhode Island      BILL SHUSTER, Pennsylvania
JIM COOPER, Tennessee                K. MICHAEL CONAWAY, Texas
JIM MARSHALL, Georgia                THOMAS J. ROONEY, Florida
BRAD ELLSWORTH, Indiana              MAC THORNBERRY, Texas
PATRICK J. MURPHY, Pennsylvania
BOBBY BRIGHT, Alabama
SCOTT MURPHY, New York
                Peter Villano, Professional Staff Member
               Alex Kugajevsky, Professional Staff Member
                     Andrew Tabler, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2010

                                                                   Page

Hearing:

Tuesday, April 27, 2010, Closing the Gap: Addressing Critical 
  Rotary Wing Shortfalls for U.S. Special Operations Forces in 
  Fiscal Year 2011 and Beyond....................................     1

Appendix:

Tuesday, April 27, 2010..........................................    19
                              ----------                              

                        TUESDAY, APRIL 27, 2010
 CLOSING THE GAP: ADDRESSING CRITICAL ROTARY WING SHORTFALLS FOR U.S. 
        SPECIAL OPERATIONS FORCES IN FISCAL YEAR 2011 AND BEYOND
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Kline, Hon. John, a Representative from Minnesota, Subcommittee 
  on Terrorism, Unconventional Threats and Capabilities..........     2
Sanchez, Hon. Loretta, a Representative from California, 
  Chairwoman, Subcommittee on Terrorism, Unconventional Threats 
  and Capabilities...............................................     1

                               WITNESSES

Reap, Col. Vincent M., USA, Director, Maritime and Rotary Wing 
  Assessment, U.S. Special Operations Command....................     5
Reid, Garry, Deputy Assistant Secretary of Defense for Special 
  Operations and Combating Terrorism, U.S. Department of Defense.     3

                                APPENDIX

Prepared Statements:

    Miller, Hon. Jeff, a Representative from Florida, Ranking 
      Member, Subcommittee on Terrorism, Unconventional Threats 
      and Capabilities...........................................    26
    Reap, Col. Vincent M.........................................    35
    Reid, Garry..................................................    29
    Sanchez, Hon. Loretta........................................    23

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Bright...................................................    45
    Mr. Kline....................................................    45

Questions Submitted by Members Post Hearing:

    Ms. Sanchez..................................................    49
 CLOSING THE GAP: ADDRESSING CRITICAL ROTARY WING SHORTFALLS FOR U.S. 
        SPECIAL OPERATIONS FORCES IN FISCAL YEAR 2011 AND BEYOND

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
     Subcommittee on Terrorism, Unconventional Threats and 
                                              Capabilities,
                           Washington, DC, Tuesday, April 27, 2010.
    The subcommittee met, pursuant to call, at 2:33 p.m., in 
room 210, Capitol Visitor Center, Hon. Loretta Sanchez 
(chairwoman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. LORETTA SANCHEZ, A REPRESENTATIVE 
    FROM CALIFORNIA, CHAIRWOMAN, SUBCOMMITTEE ON TERRORISM, 
            UNCONVENTIONAL THREATS AND CAPABILITIES

    Ms. Sanchez. The Subcommittee on Terrorism, Unconventional 
Threats and Capabilities will come to order.
    Good afternoon. I would like to welcome all of you and 
thank you for joining us today to discuss current rotary wing 
requirements of the U.S. Special Operations Forces [SOF] and to 
in particular address any capability shortfalls. This hearing 
also will provide additional details on the expansion of the 
rotary wing capabilities as requested by SOCOM [Special 
Operations Command] for fiscal year 2011.
    Let us just say that this hearing is probably a good news/
bad news type of hearing in the sense that the Department and 
SOCOM all recognize that rotary wing shortfalls are critical 
for our Special Operations Forces. And the bad news, of course, 
is how far behind are we; what do we really need; and how are 
we going to get this done and implemented in the years to come.
    So currently our Special Operations Forces operate in more 
than 75 countries each and every day, countering terrorism, 
building partnership capacity in key areas, and improving 
security and stability for some of our key partnering nations.
    In fact, I just had the opportunity to be out in Asia and 
see some of our forces out there and take a look at the type of 
work that they are doing. They are often in remote locations 
with limited infrastructure and reinforcements. And air assets 
provide that vital operational link and emergency link actually 
to make sure that mission success is there for our Special 
Operations Forces. Rotary wing assets in particular are key. 
They enable us to do special operations and they are critical 
for counterterrorism, counterinsurgency, operations in 
Afghanistan, Iraq, and elsewhere where the terrain obviously is 
not really accessible unless we do have that type of 
capability.
    So the helicopters and the tilt wing aircraft provide fire 
support, surveillance, insertion, extraction and other combat 
support functions. And, most critically, they serve as the 
logistical backbone for our Special Operating Forces and our 
other forces. We work together in moving critical supplies over 
rugged terrain to those remote areas.
    My top priority as chairwoman of the House Armed Services 
Subcommittee on Terrorism, Unconventional Threats and 
Capabilities is to ensure that we understand the types of 
resources that are needed by our Special Operations Forces and 
to figure out how we are going to get them in place so that we 
can deter terrorist threats. And this includes our rotary wing 
assets which, of course, if you can imagine, are in high demand 
and everybody wants them. Where are we going to get them?
    It is important to note that the U.S. Special Operations 
Command cannot buy aircraft, but is actually only authorized to 
pay for Special Operations Forces' unique equipment for 
aircraft. And that means that SOCOM must coordinate very 
closely with the services.
    So I look forward to discussing this process to make sure 
that, in fact, coordination is going on and to hear how the 
service's larger acquisition program actually does support our 
Special Forces. And I hope that today's hearing will provide 
the necessary details on the expansion of rotary wing 
capabilities for fiscal year 2011 and also for them to discuss 
future-year requirements and solutions to address this issue of 
everybody wants it, but we don't have that much of it.
    So today we have two witnesses before us. First we have Mr. 
Garry Reid, who is the Deputy Assistant Secretary of Defense 
for Special Operations and Combating Terrorism, representing 
the Office of the Secretary of Defense [OSD]. And we have 
United States Army Colonel Vincent Reap, the Director of Rotary 
Lift Assessments at U.S. Special Operations Command.
    Once again, I would like to thank all of our witnesses for 
being here today and I look forward to hearing your 
testimonies. And I will remind those here that we have this 
testimony in writing. It has already been provided. Hopefully 
those of us here have read it, and we will ask the gentlemen to 
lead off in a moment.
    But I would like to indicate over here to Mr. Kline, who is 
stepping in for Mr. Miller of Florida--and, Mr. Kline, do you 
have any comments to make?
    [The prepared statement of Ms. Sanchez can be found in the 
Appendix on page 23.]

STATEMENT OF HON. JOHN KLINE, A REPRESENTATIVE FROM MINNESOTA, 
     SUBCOMMITTEE ON TERRORISM, UNCONVENTIONAL THREATS AND 
                          CAPABILITIES

    Mr. Kline. Thank you, Madam Chair. I want to add my welcome 
to our witnesses and ask unanimous consent that Mr. Miller's 
opening statement be entered into the record.
    [The prepared statement of Mr. Miller can be found in the 
Appendix on page 26.]
    Mr. Kline. And I would just say to our witnesses--of 
course, I spent a whole lifetime in rotary wing. My son is 
spending another lifetime in rotary wing. So it is obviously 
very near and dear to my heart, and I wanted to express 
certainly my sadness at the loss of AFSOC's [Air Force Special 
Operations Command] V-22. We have pinned so much hopes on that 
tilt rotor technology; the Marine Corps, certainly. And it is 
an absolutely fantastic asset, so I am eager to see the results 
of that investigation.
    And we are probably going to talk about 47s and H-60s and 
things like that here today. But that was a tough loss. So I am 
looking forward to the testimony, and I yield back.
    Ms. Sanchez. Great. Thank you, Mr. Kline.
    And so we will lead off--I will remind our witnesses that 
your testimony will be inserted into the record and ask you to 
summarize in 5 minutes or less.
    Ms. Sanchez. We will begin with Mr. Reid. How is that?

STATEMENT OF GARRY REID, DEPUTY ASSISTANT SECRETARY OF DEFENSE 
FOR SPECIAL OPERATIONS AND COMBATING TERRORISM, U.S. DEPARTMENT 
                           OF DEFENSE

    Mr. Reid. Thank you, Chairwoman Sanchez and Mr. Kline and 
other members of the committee, for this opportunity to testify 
today on critical rotary wing shortfalls for the U.S. Special 
Operations Command and our Special Operations Forces. Like you, 
I share a keen interest in this not only by virtue of my 
current job in Special Operations Oversight, but also in my 
military career. I spent 28 years as a Special Forces operator 
both in our theater forces and in our classified forces. And I 
lived this problem as a ground operator for my whole adult 
life. So I am very keen to be a part of it now and make these 
recommendations and provide the oversight that I think we need 
to get this right, and getting better all the time.
    It is my pleasure to join Colonel Vincent Reap here today 
from USSOCOM to discuss our programs, our plans and our 
policies to support current and future Special Operations 
Forces rotary wing requirements.
    As you mentioned, Madam Chairwoman, I have provided written 
testimony, and I will ask that it be entered into the record.
    And to follow on your point about providing just some key 
highlights here for a couple of minutes, with your permission, 
I would like to say that this issue of rotary wing aviation, 
whether provided by helicopters or their 21st century tilt 
rotor fixed wing cousins, the Osprey's, has been the hallmark 
of U.S. military operations fully since the days of the Vietnam 
War, if not before.
    The extreme climate and high mountainous terrain in 
Afghanistan poses a significant challenge to the use of rotary 
wing aviation and has generated significant interest by this 
committee, by our defense planners, and as well as those in the 
aviation industry, academia and in our think tanks. The 
Department of Defense [DOD] has been actively engaged in 
addressing these challenges since the onset of the war in 
Afghanistan, and most recently in our 2010 Quadrennial Defense 
Review [QDR], which we provided to this Congress in February of 
this year. We continue to adapt our forces and capabilities in 
this area to ensure we have the right assets and the right 
locations to meet the demands across the force.
    As we noted in the QDR, the sustained deployment of Special 
Operations task forces in Afghanistan, Iraq, the Trans-Sahel, 
Colombia, and the Philippines has outpaced SOCOM's current 
rotary wing assigned organic capacity. The QDR looked across 
the Department to develop solutions within USSOCOM and in our 
General Purpose Forces that would provide near- and long-term 
relief to these shortages.
    As a result of the QDR process and as otherwise reflected 
in the President's 2011 budget request, we are taking several 
steps to address this. We are expanding the number of MH-60 and 
MH-47 rotary wing lift platforms that are assigned to USSOCOM. 
We are continuing to field the CV-22s. We are adding two 
additional combat aviation brigades to the U.S. Army and 
developing direct support agreements between Army and SOCOM to 
solidify what we call GPF, General Purpose Force, and SOF 
integration. And this is the theme, by the way, that exists not 
only in aviation, but across the body of enabling direct 
support-type assets.
    ISR [Intelligence, Surveillance, and Reconnaissance] is 
another good example--intelligence, resources in general--where 
the criticality of these enabling capabilities is such that we 
are improving and sharing across SOF and GPF more so than ever.
    We are also, as reflected in the QDR, dedicating two Navy 
helicopter squadrons to provide direct support to Navy Special 
Warfare. This is again a sign of the times, so to speak, a new 
construct, a new way to take what we have and make it more 
available to SOF in this case. And it is something that was 
happening less formally and we are strengthening through these 
agreements as part of this sort of year-long process in the QDR 
to look at ways to get at this in the near term while we build 
new platforms for the long term. And then, similarly, extending 
the service life of those platforms that we have that we can do 
that with. And Colonel Reap will talk more about that.
    Increasing our number of pilots is another area. Where we 
have platforms, we need more pilots to get more out of the 
platforms we have.
    So these are the types of things that you see in the QDR 
and these are the things we are doing to address this most 
currently. All of these measures will, over the 2011 to 2015 
period, help close the gap that currently exists in SOF rotary 
wing aviation. Broadly, our goal is to ensure that SOF, 
fighting today's counterinsurgency and counterterrorism 
operations, have the vertical lift they need to succeed, and 
improving, as I said, improving SOF and GPF integration is 
critical to this goal.
    In addition to ensuring that we have sufficient rotary wing 
capacity for our own force planning, we also in this discussion 
must consider the current and future demand to train and equip 
foreign forces as part of our long-term strategy to strengthen 
the security force capabilities of key partners.
    And if you look within the National Defense Strategy, 
national military strategy particular to this transnational 
terrorism fight, denying safe havens and increasing security 
capacities of key partners is essential to achieving that goal.
    In that vein, aviation forms a key component of that. The 
QDR highlighted the priority of building partner-nation 
security capacity as a mission for U.S. forces. Within SOF, 
this manifests itself most presently in the expansion of the 
Air Force, U.S. AFSOC 6 Special Operations Squadron, which is 
still the only U.S. military unit specifically organized, 
trained, and equipped to train and advise foreign militaries on 
the operation and employment of air assets.
    Additionally, however, within our General Purpose Forces, 
both the Army and the Air Force are formalizing and expanding 
organizations in each service that also provide training to 
pilots, in the Army's case, at Fort Rucker. The Air Force has 
expeditionary wings in Afghanistan that they are through this 
process adding to, expanding, and providing a basis for going 
forward. So all of this is related to this in one way or the 
other.
    The challenges related to medium and heavy vertical lift 
and hostile direct and austere environments are among the most 
pressing the Department of Defense faces today. The Army, the 
Air Force and the U.S. Special Operations Command are moving in 
the right directions to mitigate these challenges.
    I thank you again for inviting me here today to address 
this. I look forward to your questions today. And most 
importantly, we do appreciate the continued interest and 
support by this committee for the Department of Defense for our 
special operators. And as we go through and review the budget 
request going forward, we appreciate the support the committee 
has provided in the past and we hope to continue in the future. 
So thank you very much.
    Ms. Sanchez. Thank you, Mr. Reid.
    [The prepared statement of Mr. Reid can be found in the 
Appendix on page 29.]
    Ms. Sanchez. Now we will hear from you, Colonel, for 5 
minutes or less.

STATEMENT OF COL. VINCENT M. REAP, USA, DIRECTOR, MARITIME AND 
    ROTARY WING ASSESSMENT, U.S. SPECIAL OPERATIONS COMMAND

    Colonel Reap. Thank you very much, Madam Chairwoman. Good 
afternoon, distinguished members of the committee. Thank you 
for the invitation to appear before you today to highlight the 
United States Special Operations Forces rotary wing programs.
    As the Director of Rotary Wing and Maritime Assessments for 
the United States Special Operations Command, it really is an 
honor to be here before you today to offer this testimony.
    By way of a brief introduction, please allow me to tell you 
that I have spent 24 years in Army aviation, to include 2 years 
on an exchange with the United States Marine Corps at MAWTS-1 
[Marine Aviation Weapons and Tactics Squadron] in MCAS [Marine 
Corps Air Station] Yuma, Arizona. I have been an Army Special 
Operations aviator since my selection in 1993. I have served or 
commanded at every echelon in the 160th, from platoon leader, 
culminating in my service as aviation task force commander, and 
combat both in Iraq and Afghanistan, as well as service as the 
executive officer and regimental deputy commander. I have 
executed more than 1,000 hours in night vision goggles. And I 
have operated each of the 160th airframes. So I am pretty 
familiar with the regiment and its capabilities.
    Presently I do serve as the Assessment Director to the 
Commander of the United States Special Operations Command on 
rotary wing and maritime platforms, which were in my portfolio. 
Along with several other joint officers, we provide capability 
assessment and program evaluation that provides the best mix of 
joint capability for the command. We offer those 
recommendations to the commander as he makes his decisions to 
allocate resources in accordance with the strategy.
    We will offer thanks to the foresight, advocacy, and strong 
support of this committee. We are indeed positioned to meet the 
nation's expectations of its Special Operations Forces.
    I thank you for taking my statement for the record and 
admitting it as such. The United States Special Operations 
Command's unique responsibilities include providing Special 
Operations Forces with specialized equipment to perform their 
worldwide missions. Essential equipment to the command includes 
its vertical lift aircraft, assets which are capable of 
operating at extended ranges under adverse weather conditions 
to in-fill and ex-fill, resupply and reinforce SOF.
    Owing to the realities of the multiple conflicts and 
exceptionally challenging environments, the value of vertical 
lift in support of SOF cannot be emphasized enough. Helicopters 
and tilt rotor aircraft provide a unique and potent military 
capability, one which certainly spans all the services within 
the Department.
    Despite their prominence and necessity, deployable SOF 
rotary wing assets remain limited. The improved survivability 
equipment, advanced training, and extended ranges, however, the 
Special Mission Aviation Fleet empower missions unattainable by 
any other.
    SOF force structure growth remains rapid and unprecedented. 
The time, however, required to manufacture and modify Special 
Operations aviation airframes, as well as train the Special Ops 
pilots who will operate them, have created a bit of an 
imbalance in required lift for SOF.
    The fiscal year 2011 Defense budget request on the heels of 
the QDR, as mentioned by Mr. Reid, begin to address the 
reality; and they do request continued support for a program 
aimed at achieving the required capacity, certainly by the end 
of the future year's Defense plan.
    In tandem, Special Operations Command works closely with 
the services to mitigate rotary wing lift shortfalls. The 
General Purpose Forces aviation and increased service support 
of helicopter operations in support of SOF combine to provide 
critical enabling capability to our deployed soldiers, sailors, 
marines and airmen. Like the services, SOCOM does not normally 
exercise operational control over its deployed units. 
Employment and allocation of in-theater assets remain as 
directed by the geographic combatant commander.
    I would like to highlight that the SOCOM 2011 budget 
request includes three key aviation funding items: 
approximately $80 million for rotary wing upgrades and 
sustainment; $108 million for the service-life extension of the 
MH-47; and $179 million for the MH-60 Black Hawk modernization 
program.
    Additionally, replacements of aircraft lost in combat and 
training accidents are contained within the fiscal year 2010 
overseas contingency operations supplemental request. The 
funding paves the way for ongoing survivability, reliability, 
maintainability and sustainment costs for the fielded rotary 
wing aircraft and subsystems. It does include procurement of 16 
helicopters, of MH-60, and the advanced procurement of 8 
additional MH-47Gs.
    In closing, the budget request exists as a turning point 
for a longer-term upturn in the numbers of these valuable 
assets. Targeted upgrades will bring us the capability and 
capacity gains for both SOF and the geographic combatant 
commanders that they serve. These are crucial stepping stones 
in reversing a capacity and capability gap toward one of 
increasing outcomes for our Special Operations aviators or 
special operators.
    On behalf of the United States Special Operations Command, 
I thank you for the opportunity to appear before you today. I 
look forward to answering your questions.
    [The prepared statement of Colonel Reap can be found in the 
Appendix on page 35.]
    Ms. Sanchez. Thank you, Colonel. I appreciate your 
testimony.
    And I am going to begin by asking some questions, mostly 
because, as you know, I am new to this subcommittee and new as 
its chairwoman. So I am sort of trying to get my feet wet here 
in understanding. I have gone through your testimony, have sat 
in on the QDR issues.
    So my first basic question, it is my understanding that 
some assets are within SOF and--but most assets are from 
conventional forces that are plussed-up to SOF standards and 
then used to operate for SOF; is that correct? Explain to me 
sort of what the lay of the land is with these assets.
    Colonel Reap. I would be pleased to do that for you ma'am.
    Madam Chairwoman, SOCOM has an organic vertical lift 
capability. It is composed of a helicopter inventory and a tilt 
rotor aircraft inventory. Within the helicopter inventory, 
there are a number of organic H-6, MH-60 and MH-47 helicopters; 
and on the tilt rotor side, the CV-22, which are organic to 
SOCOM. They reside in the United States Army Special Operations 
Command and the United States Air Force Special Operations 
Command respectively. That inventory is the rotary wing SOF 
inventory.
    When our SOF operators are deployed into the geographic 
combatant commander's area of responsibility--so, for example, 
into Afghanistan, within that theater--assets are allocated to 
them. The geographic combatant commander requests those of the 
force providers. They are introduced into theater. And then he 
marries and allocates air in support of the SOF operations 
within his area of responsibility into the theater commanders.
    In the case of SOF operators in Afghanistan, for example, 
where he has SOF operations on the ground, they may require not 
only Special Operations aviation support--and so he would put 
his MH-60s or 47s against those requirements--but they may also 
require just a more general rotary wing in support of those SOF 
operations. So he has the ability to array support or command 
relationships of other General Purpose Force; so more 
traditional CH-47 perhaps, or UH-60, in support of those SOF 
operations.
    Ms. Sanchez. Good. Gotcha.
    Mr. Reid, when you talked about your opening statement, we 
know that there are shortfalls, especially for the future. And 
those have been well documented, I think, before I came on as 
chairwoman a month or two ago. There had been, I think last 
March, a whole hearing on a review conducted by Joint Staff and 
RAND and the Center for Strategic and International Studies, 
all substantiating the shortfalls that would come before us 
with respect to rotary wing capacity for Special Operations 
Forces. And I know that Assistant Secretary Vickers has 
recently commented that rotary wing lift is still one of the 
biggest hardware needs for SOF.
    So, from the Office of the Secretary of Defense, can you 
tell us where you think the bottleneck is? Is it lack of money 
appropriated to it? Is it lack of manufacturing capacity? Is it 
that some of that necessity was the 22, and we had some ongoing 
problems with reliability with that aircraft? What are the 
shortfalls and what is the root cause of that? And what can we 
as a Congress do to alleviate that?
    Mr. Reid. Thank you for the question, Madam Chairwoman. And 
to get right to it, I think everything you mentioned bears on 
the problem in one way or another. I think there are some other 
factors, I guess you would say, that got us into this 
situation. I would say the single greatest factor that got us 
where we are into a shortage is the general unpredictability of 
the security environment.
    Just to take that back to, say, a 2003-2004 time frame and 
what we know now that has occurred over those 7 years between 
now and then, what you run into is a period from 2007 into this 
year where the demands in Iraq stayed high, went higher than 
anticipated, and before that demand came down, we started 
raising demand and increasing supply into Afghanistan. And that 
point is about where we are right now.
    And I would say to this whole subject, in our view, we are 
on the way back up, but we recognize that we have been in this 
trough, so to speak.
    So I think in the first instance, hindsight being 
everything, the dual demand of both theaters of operation at a 
higher level than anticipated is probably a significant factor. 
The delay in fielding of the 22 certainly bears on the problem. 
The delays in getting the modifications and these things in 
place bears on the problem.
    The other thing that bears on the problem--I am not sure if 
you mentioned it or not, but we recognize--is that we have 
added ground capability within SOF. And within this QDR in 
particular we focused much harder on the enabling capabilities 
than we did on so-called operator capability, to try to bring 
those back to level.
    And as you look across the budget request in the QDR, I 
think you see that, reflected in just about every part of the 
Special Operations Force, the emphasis is on enablers. There is 
some rounding out of operator growth, but not as significant as 
there was in 2005-2006. And so we are matching now these two 
together.
    At the same time this is all happening, we are continuing 
to adapt our methodologies in the field. And, in some 
instances, the way our forces are arrayed or the demands on 
those forces or the missions, or the enemy, for that matter, 
affects the demand in certain ways. And a good example of that 
is the growing IED [Improvised Explosive Device] threat in 
Afghanistan and the driver that that creates for an increased 
demand on aviation.
    Now, to meet this again, what you have, you can't go down 
and just buy some helicopters. So the simple mechanics of it 
all necessitate about a 4-year lead-in. So where we have looked 
hard and where the chairman looked hard in our review of 
helicopter assets, our ROHA review of 2009, which identified 
how all 5,317 helicopters in the Defense Department are being 
deployed, and narrow that down to where can we get helicopters 
that we can use in Afghanistan, which starts with the 47s--and 
then if you are in the south, the 60s and the 22s and how are 
we best--how can we best manage those. And this is where you 
see bringing in additional combat aviation brigades and laying 
those on top.
    Even before the troop increase, we were bringing in 
additional caps to address this. Integrating the SOF 
requirements into, as Colonel Reap said, into the combatant 
commanders' aviation demand-supply planning matrix is a 
relatively new thing for us in SOF. In the past, SOF would have 
managed SOF. So these are being done not only because they make 
good resource sense, but because this is the only place to 
generate more capacity in the near term. So that is where I 
would leave that.
    I think the environment, the enemy certainly has a vote in 
this. The delay of getting new platforms fielded once you get 
to this situation, and then the sort of fielding aspects that 
did create some delays there with the CV-22.
    Ms. Sanchez. Colonel, would you have anything to add to 
that? I am guessing that we are going to more remote areas. We 
are in 75 different countries with our SOFs. And operationally, 
do you see any changes that require more of this rather than 
less?
    Colonel Reap. Madam Chairwoman, thank you for the 
opportunity to add to Mr. Reid's comments. I certainly agree 
with Mr. Reid. The situation, specifically with regard to the 
environment in which we find ourselves currently engaged, the 
challenges that are present in Afghanistan accentuate the 
capacity gap, if you will, that there are few airframes in the 
DOD's inventory, and then in the SOF inventory, that can 
effectively operate at the extreme high altitudes and 
temperatures that are associated with operations in 
Afghanistan. It narrows the pool on what can get out there and 
get after, and get a meaningful payload into the right location 
at the right time to accomplish the mission.
    That said, beyond Afghanistan, as we look at what else is 
out there, what will we get after in the future, recognizing 
enduring requirements in those theaters for SOF and SOF rotary 
wing, it is a matter of building capacity, as we have a program 
to do, and a prioritization and allocation effort that is done 
in coordination with the geographic combatant commanders and 
coordinated by SOCOM through the Global Sync Conference; I 
would add that.
    Thank you, Madam Chairwoman.
    Ms. Sanchez. I see my time has expired. I will ask Mr. 
Kline if he has any questions and give him 5 minutes for those.
    Mr. Kline. Thank you, Madam Chair. I will gleefully take my 
5 minutes.
    Colonel Reap, I have always thought that the 160th probably 
had the finest rotary wing aviators in the world, and that was 
always tough for me to swallow being a Marine aviator. But now 
that I see that you spent 2 years with MAWTS, I am sure you 
absolutely are one of the best in the world.
    The whole issue that we have got here is a shortfall. That 
is what we are talking about. You are looking for 16 more H-60s 
and 8 more 47s; is that right? And I am leaving out the V-22. I 
am just talking about SOAR [Special Operations Aviation 
Regiment] right now. I am actually surprised you don't need 
more of the Chinooks, considering the altitude requirements in 
Afghanistan. So we are looking for more helicopters, and we 
need money for that. And then you have got a request for about 
100 million more, I think this year, in budget request in 
rotary wing for H-47 service-life extension, H-60 SOF 
modifications and just general upgrades. And you have got money 
from the supplemental, which is going to go away pretty 
quickly.
    So I have got a couple of questions. Do you see the money 
now in the budget that you need to add the aircraft and to 
replace aircraft and the money for the modifications? And is 
all of that--you are going to be able to take care of that as 
you go forward and put it in the baseline budget. So we will 
talk dollars first. And if we have enough time, I am going to 
talk people. Colonel Reap.
    Colonel Reap. Thank you, Congressman Kline.
    You had mentioned the number of 47s in the inventory and 
whether or not that target that we had with adding the eight 
that you saw in the fiscal year 2011 budget request, those 
eight--that request, sir, reflects the long lead items that are 
to get to the eight.
    I would offer at present, sir, this year we are continuing 
delivery of the MH-47G in its modernization and growth effort. 
So, while today there are 54, that number ascends to 61 at the 
end of this year; and it then continues a trend based on the 
QDR report, or work with the services, the fiscal year 2011 
budget request that adds 8, you know, through that long lead 
item purchase and then deliveries across the FYDP [Future Years 
Defense Program].
    As to the supplemental funding, sir, we are working with 
the Secretary of Defense. SOCOM has articulated what we see in 
the near and through the program future as to the demands of 
SOF by the geographic combatant commanders. We don't see the 
requirement diminishing for SOF. So we are working with the 
Secretary of Defense as to how we continue to be resourced in 
order to provide that capability that is being asked of SOCOM.
    Mr. Kline. Right. Of course you are. But everybody does 
that. I mean, the question is, when the supplemental money goes 
away, and you are just working in the budget, have you already 
accounted for that in the sort of FYDP going forward? You have 
the money reflected in there for what you need to modify and 
maintain all of these rotary wing aircraft that we just talked 
about inside the base budget?
    Colonel Reap. That requirement is identified by OSD, and I 
would defer to Mr. Reid to answer exactly how that would be 
resourced back to SOCOM.
    Mr. Reid. If I could just add, the Secretary did make--and 
I don't have the number off the top of my head. I can get it 
for you--but a sup to base increase for SOCOM just this year 
carried forward in the program.
    Mr. Kline. That is----
    Mr. Reid. You are saying about getting off the 
supplemental?
    Mr. Kline. Well, that is a general concern we have for 
everybody. You are a SOF sitting in front of us. But we could 
have the same conversation about all the services as we figure 
out how to wean from that supplemental and make sure that what 
we are going to require is actually in the base budget.
    And then, very quickly, because my time is winding down 
rapidly----
    Ms. Sanchez. Rapidly.
    Mr. Kline. Rapidly, yes; 17 seconds left, unless the 
chairwoman was going to yield me some of her 5 extra minutes.
    Ms. Sanchez. Go ahead.
    Mr. Kline. The force structure to support all of this, do 
you have the force structure? And are you manning at a high 
enough level now, or do you see any difficulties going forward 
to have the people that you need for the additional aircraft?
    Colonel Reap. Thank you, Congressman Kline. And to get at 
your question as rapidly as possible and provide you some----
    Mr. Kline. Take as much time as you want now. I am done.
    Colonel Reap. Sir, today the regiment is able to man its 
operational fleet completely with trained and ready crews and 
execute. In very close coordination with the services, 
specifically with the Army, is working to continue to grow the 
number of Special Operations aviators that are necessary to 
fill and man all of the aircraft with trained and ready air 
crew, and to do so at about a 1.5 crew ratio on our larger 
aircraft, the 60s and 47s. That challenge, sir, you recognize 
from years of experience. I know that you can appreciate it 
personally.
    I offer to you that there are some great initiatives that 
the Army has come back with in supporting SOCOM as we look to 
continue to grow that force and take it from where we are 
today, to continue to grow it through 2011 and 2012 as our 
inventory increases, to make sure we are meeting our numbers. 
So we have got a challenge to make sure that our institutional 
training base is manned appropriately and has the capacity to 
generate the throughput that is required, and, at the same 
time, have the right number of operational air crew to take 
those operational airframes and support SOF downrange.
    It is a challenge I know that you can recognize, but one in 
which we have a plan to achieve. And that our rate of growth, 
sir--that was an earlier comment that I failed to address and I 
regret that. But if you would, I will let you know that we are 
pretty much working at the upper bound, if you will, of what 
Admiral Olson has been on record with this committee in talking 
about that 3 to 5 percent growth rate for SOCOM. And we are at 
the upper bound as we understand the importance and the demand 
for addressing this gap in capacity for SOF rotary wing.
    Mr. Kline. You will--I know I am over my time. You will be 
having an impact on general purpose Army as well, because you 
are taking the most experienced, sort of the best of the best 
in many cases, and that is coming from the rest of the Army. So 
I am concerned at both ends of it.
    Colonel Reap. There is absolutely an impact there, sir.
    Ms. Sanchez. Mr. Bright for 5 minutes.
    Mr. Bright. Yes, ma'am. Thank you, Madam Chairman. I 
appreciate you holding this hearing and I look forward to 
working with you on Special Operations Forces moving forward. I 
am especially pleased to participate today because, as you 
know, I am very interested in rotary wing issues due in large 
part to the fact that Fort Rucker, the home of Army Aviation, 
is located in my district in southeast Alabama; Ozark, Alabama.
    In Alabama, we love the sound of helicopters flying 
overhead, because as my constituents often say, that is the 
sound of freedom that we hear, not helicopters. Considering the 
important role these aircraft play in this Special Forces 
world, this hearing is very timely.
    And I am also here to ask a couple of questions to the 
witnesses and want to thank you for coming today and 
testifying, and you have already been very enlightening for me.
    Mr. Reid, my first question would be to you. And I heard 
you answering the chairlady's question but I am not sure I 
grasp the opinion or your answer firm enough. And I am just 
going to kind of ask it in a different way. Based on the 
shortfalls that we are having right now in the rotary wing lift 
forces out there, do I hear that it is having an effect on the 
ability for us or our country to deter, disrupt, or defeat 
terrorism throughout our global efforts out there? Did I hear 
you comment or give an opinion based on our shortfalls?
    Mr. Reid. No, sir, not that I recall saying that.
    Mr. Bright. Would you have an opinion?
    Mr. Reid. Yes, sir. Absolutely. Thank you.
    I would say no. And the chairwoman mentioned our trip out 
to the Philippines and what she saw out there is contract 
aviation. My point is, outside Iraq and Afghanistan, our 
employment model, our engagement model, and our options for 
deployment of Special Operations Forces in the counterterrorism 
fight context is largely dependent upon what the political 
security environment will bear. And in most cases, that will 
not bear an overt MH-47, MH-60 presence.
    This links back to my comment earlier about our aviation 
training for partners and, what we call in the Department, our 
nonstandard rotary wing capability and suite of capabilities; 
for example, where we train partners in a foreign-manufactured 
aircraft.
    We have, coincidentally, just relocated an Army regiment to 
Fort Rucker and we will be expanding this at Fort Rucker. It 
was previously at Fort Bliss, specifically for the purpose of 
training U.S. pilots, military and some DEA [Drug Enforcement 
Administration] in there as well, for foreign aircraft. Those 
aircraft become our way of working in some of these other 
countries where we cannot deploy a U.S. military aircraft. So 
that is part of this equation.
    Of course globally, if we are looking at force projection, 
force entry-type operations, certainly we have the capacity and 
we have enough assets to conduct a mission in another country 
should it be warranted. But I don't want to say that that is 
happening. It is a capability we reserve.
    If you look at our engagement in this global 
counterterrorism fight in other countries, it is largely 
through and with partners, and, in most cases, through and with 
their capabilities as well. So this particular shortage we are 
referring to that is most manifested in Afghanistan does not 
export into shortages in these other areas necessarily.
    Mr. Bright. Okay. Good. Thank you very much.
    Colonel Reap, do you have anything to add to that?
    Colonel Reap. Nothing substantively there, sir. I certainly 
agree with Mr. Reid's assessment of that. The U.S.-type 
aircraft in some countries and their overt presence may or may 
not send the right message. So I haven't that--other capability 
as he addressed in building partnership capacity----
    Mr. Bright. All right. I have very limited time, but let me 
ask this. We have retired the MH-53. And in your opinion, 
Colonel--I will start it with you--what effect, if anything, in 
retiring the MH-53 will it have on our rotary lift shortfall, 
if anything at all?
    Colonel Reap. There was certainly an impact, sir, 
qualitatively and quantitatively, assuredly drawing down the 
vertical lift inventory. However, it was faced with 
obsolescence and the cost of maintaining.
    Mr. Bright. Did the Osprey fill the void?
    Colonel Reap. We saw that the 47 and the Osprey together 
would fill that void. And we are seeing that upturn as time and 
resources continue. We certainly would expect that, as a result 
of the fiscal year 2011 and through the FYDP, that we more than 
make up for the loss of the 53.
    Mr. Bright. Okay. Madam Chairman, my time has expired. I 
will yield back to you.
    Ms. Sanchez. I thank the gentleman from Alabama. And we 
will do a second series of questions so you will have another 
opportunity to ask. And I will go ahead and ask the question.
    Admiral Olson has suggested that about 80 percent of our 
Special Operations Forces are in Central Command's area of 
responsibility right now. Is that also true about our aviation 
assets? Does the ratio pretty much follow that? Either one of 
you.
    Colonel Reap. Madam Chairwoman, thank you. Probably 
greater--of the deployed SOF rotary wing asset, it's probably a 
greater percentage that is engaged in Afghanistan and Iraq. I 
can tell you that since 9/11, about 30 percent of the SOF 
rotary wing inventory has been deployed and another 10 percent 
on top of that has been on an alert posture with a very finite 
window for it to be recalled. So essentially committed out of 
the aggregate inventory on any one day.
    Ms. Sanchez. Thank you.
    Mr. Reid. If I could just add, all of the 47s, SOF MH-47s 
that are deployed are in CENTCOM [Central Command].
    Ms. Sanchez. Thank you for that. You mentioned in your 
opening testimony, and the 2010 QDR review highlighted, the 
Navy recently converted two squadrons to support requirements 
for Navy SEALs [Sea, Air and Land]. I think that is a step in 
the right direction, using existing squadrons to help support 
the SOF and help close the gap that we are witnessing.
    Are there similar proposals being considered by the 
Department? For example, Air National Guard units or Marine 
Corps aviation assets dedicated to support MARSOC [Marine Corps 
Special Operations] or something, for example? Either one of 
you or both of you.
    Mr. Reid. Just so I didn't mislead--or to be more precise 
about the Navy asset. This is a support arrangement. It is not 
a physical conversion of a platform. It is a formalization of a 
relationship that Navy--Special Warfare already had with Navy 
to essentially borrow the 60s, whatever--it is not an MH. It is 
the maritime version. So it wasn't a conversion per se.
    The Army, as I mentioned, two additional combat aviation 
brigades in the QDR, which results in about 24 or 25 MH-47s or 
CH-47s. It depends on--they tailor these for particular 
missions--but about that many 47s. Again, not converted for 
SOF, but through this process of formalizing these SOF-GPF 
support relationships that will increase their availability.
    So, happening there in the Army. Not happening as actively 
in the Marine Corps, although the MAGTF [Marine Air-Ground Task 
Force] and the MEU [Marine Expeditionary Unit]--for instance, 
last year the MEU went out to Helmand Province, out to Garmsir, 
did a great job out there to form MEU. And those assets when 
they were deployed were made available for other forces as 
well.
    But there is no deliberate support relationship piece being 
developed comparable to what we talked about with the other 
forces right now. The MARSOC, as you know, has adopted a one 
task force presence in Afghanistan with the Special Operations 
Task Force in RC West. They receive their airlift support from 
the Special Operations Task Force there. So they are 
integrated. Their requirements are built into that.
    Ms. Sanchez. So what do you see as any challenges when you 
have that relationship, that you have in fact reiterated, that 
you are formalizing more? Are there challenges or things that 
need to be changed when we sort of usurped a little to do a 
particular mission?
    Mr. Reid. I think it is something we get better at every 
time we do it. I don't think there is a particularly hard 
challenge. The forces--again, from my days in Special Forces 
that weren't that long ago--but the SOF-GPF interaction on the 
battlefield is unlike it has ever been. There are not the 
strong walls between the forces, so they are very accustomed to 
working with one another.
    And you see in General McChrystal's Afghanistan strategy, 
in his--the things he is doing out there with the command and 
control relationships which have--some folks are so sure. But 
what is good about this is the battle space owners, the 
maneuver brigade, the GPF and their integration with the SOF 
operating in their area is tighter than it has ever been. So it 
builds on this mutual reinforcing, mutually supporting 
relationship theme that pays dividends across the operation and 
across the force. So I don't think there is a particular hard 
challenge to it other than just learning how to operate in a 
way that maybe some folks have not operated in the past.
    Ms. Sanchez. Colonel, do you want to weigh in on that, or 
shall we move on to the next question?
    Colonel Reap. Subject to your--if you have an additional 
question that you would prefer that I----
    Ms. Sanchez. If you have something to add to what Mr. Reid 
just said.
    Colonel Reap. I certainly would be able to cite several 
examples to assure you that what Mr. Reid has told you is borne 
out in the realities of the support in the theaters, as well as 
specifically Iraq and Afghanistan, as well as to SOF at large. 
It is not uncommon where the General Purpose Force provides 
rotary wing support to SOF. This is consistent with the 
history, the relationship between SOF and the General Purpose 
Forces.
    I had an opportunity in command of a general support 
battalion in Honduras to support SOF while I was down there. It 
was my air crews that flew missions in support of SOF. There 
are plenty of my peers, contemporaries, who have commanded in 
Iraq who provided, with their assault or general support 
aviation battalions out of the General Purpose Forces, support 
of SOF in combat.
    One other thing that I would add with respect to the two H-
60 squadrons out of the Navy, it builds upon a relationship 
where Navy helicopters, HSC [Helicopter Sea Combat], have been 
and continue to provide support to SOF in Iraq. Again, a GPF 
support, to rotary wing SOF.
    So the QDR report and the intent of the language codifies 
that in having that naval GPF helicopter force to continue to 
support SOF and, by proximity, focus on Naval Special Warfare 
Command.
    Ms. Sanchez. Thank you, Colonel.
    I will now recognize Mr. Kline, if he should have some 
further questions, for 5 minutes.
    Mr. Kline. Thank you, Madam Chair. A comment picking up on 
what the chairwoman was asking about, the General Purpose 
Forces support. I understand very well that that is a sort of 
longstanding proposition, as Colonel Reap mentioned.
    I am a little bit concerned about a couple of aspects of 
that. One, as Colonel Reap knows, the General Purpose Forces 
aren't trained to the same level as 160, nor is their equipment 
the same as 160. And I have a great deal of confidence that in 
the theater, they are working that out so we are not tasking 
the general purpose Black Hawk battalion, for example, to do 
the same thing as an MH-60 aircraft and crew would do. But that 
tradeoff between support for the General Purpose Forces and 
providing the sort of best of the best for the SOF mission, in 
some cases where you have a very heavy tasking of your rotary 
wing forces in general, could be a little bit problematic.
    And I think it is important that SOF have the force 
structure and the equipment that they need. I mean, I know we 
just don't have everything right now. But I am a little bit 
sensitive to that; that the impact that it has on the General 
Purpose Forces itself and making sure that SOF missions, some 
of which are pretty demanding, have got the best crews. 
Unfortunately, the general purpose Black Hawks, for example, 
aren't the same as M-60s. They simply don't have the same 
stuff.
    Let me talk for just a minute about the V-22. I was looking 
in here and I saw the number--and I have to admit I cannot find 
it--about what the programmed number of V-22s is right now for 
AFSOC. Do you know, Mr. Reid, how many, at the end of the day 
here, they are supposed to end up with? CV-22s.
    Mr. Reid. Fifty, sir, is what I am told. It is in here.
    Mr. Kline. Whoever might know. I don't know. Maybe, Colonel 
Reap, do you know? Is it 50, at the end of the day?
    Colonel Reap. Fifty is the number, sir.
    Mr. Kline. How fast are we supposed to be getting that?
    Colonel Reap. The rate is about five per year, sir. We have 
already received delivery of some 11 airframes. In fact, the 
12th--however, we just lost one. So we have 11 on hand at 
present.
    Mr. Kline. Okay. And so that is pretty much the delivery 
schedule you have been anticipating all along. We haven't 
slipped behind or sped it up that you know of? In the last 2 
years, has there been an adjustment in that delivery schedule 
that you know of?
    Colonel Reap. It is my recollection that we have pulled 
forward that delivery rate to the best of the ability of the 
manufacturer and in accordance with the Department's 
priorities. And I defer back to Mr. Reid.
    Mr. Kline. How many of the payloads, how many of the 53s 
were there that these were fundamentally replacing? Do you 
remember that number?
    Colonel Reap. I don't.
    Mr. Kline. Are we going to have----
    Colonel Reap. Take that one for the record?
    Mr. Kline. Please do. I can look it up, but I cannot find 
it here in the paper.
    [The information referred to can be found in the Appendix 
on page 45.]
    Mr. Kline. What I am trying to get at, are we going to end 
up--obviously, the V-22 has much greater range and speed and so 
forth. What is our capability going to be like at the end of 
this process compared to what it was under the old 53 program? 
And I guess without the numbers I cannot really tell. I know 
they are a different lift capacity and so forth. But in terms 
of air crew and size of AFSOC?
    Colonel Reap. Sir, if the question is specifically 53 to 
CV-22 comparison--or are you open to the kind of at large, what 
the aggregate----
    Mr. Kline. I am looking at AFSOC more than the total 
Special Operations Command, but the Air Force piece of this.
    Colonel Reap. I think we would have to accept that question 
for the record for you, sir; to make sure that we give you the 
specific number on the 53 inventory and allow you to draw that 
kind of a better comparison of what it was versus what will be.
    Mr. Kline. That will be fine. If we could just have that 
for the record. I yield back.
    [The information referred to can be found in the Appendix 
on page 45.]
    Ms. Sanchez. Thank you, Mr. Kline. We will now ask Mr. 
Bright if he has any questions.
    Mr. Bright. Sure. Hopefully I can clarify that. In the 
material that we were given today, it appears that 59 CV-22s 
have been ordered. Could that be correct?
    Mr. Reid. The total--no. Fifty will be the total. We have 
11.
    Mr. Bright. Maybe I interpreted the data wrong. Just a 
couple of questions, if you would.
    I believe, Mr. Reid, as you know, the Air Force is looking 
at acquiring a small aircraft to support counterinsurgency-like 
operations. I know that most of these discussions are centered 
around fixed wing aircraft, but are OSD [Office of Secretary of 
Defense] and SOCOM involved in these discussions? And would 
such an aircraft help SOF peacetime and wartime missions, in 
your opinion?
    Mr. Reid. Yes, and yes. Are involved. Would help, won't 
replace; you can't do with a light fixed wing what you can do 
with an MH-47 for a night high-mountain in-fill, but where we 
can use other assets to take strain off the higher demand 
platforms. We certainly do that now, and we would be more able 
to do it if there were more to choose from.
    Mr. Bright. Do you ever see in the near future a place for 
or a role for unmanned rotary wing aircraft in the near future 
for the operations here?
    Mr. Reid. Yes, I do. I do see application for that. And I 
think there is testing that proves that that capability is 
viable for certain types of operations.
    Mr. Bright. Okay. Madam Chairman, I will yield back. That 
is my questions.
    Ms. Sanchez. Great. Well, seeing no other members arrive--
and I am sorry it is a very, very busy time in Congress. But we 
are interested in the subject and, obviously, the capabilities 
of our Special Operating Forces. We probably have some more 
questions for you and we will be submitting them for the 
record. And we would ask that--yes.
    Mr. Bright. Madam Chairman, I have one follow-up question 
that really stems from a conversation I had with my colleague 
who was here a few minutes ago.
    Ms. Sanchez. Absolutely. Go right ahead.
    Mr. Bright. And this probably goes to Colonel Reap. He was 
visiting Walter Reed the other day and had a discussion with a 
wounded soldier there. And the soldier had some feedback. And I 
would like to get your expert opinion on what, if anything, we 
need to do with this problem. He was indicating that, of 
course, the CV-22 is a very valuable tool in our efforts out 
there, but there was a problem rapelling out of the aircraft.
    And that it had such a strong propeller wind, for a lack of 
a better description, that it took three soldiers to tether the 
Osprey, and that seemed to be a very big concern of his. I know 
it is a soldier out there that has a concern who is wounded, 
but is there a problem with that? If you have got three 
soldiers tethering the Osprey, that pretty much opens them up 
for exposure and possibly fire without defense. Has there been 
a noted problem with that?
    Colonel Reap. Mr. Bright, I appreciate the opportunity to 
answer that question for you. I am not privy to a specific 
fast-rope insertion or rappel-insertion issue to the CV-22. Of 
course, I do understand that the downwash velocity is 
significantly higher than a comparable helicopter, if you will; 
you know, same type weight, you know, max gross weight. And so, 
having that downwash may, you know, have some aerodynamic 
issues with the stability of the fast rope or the rappel rope, 
but I am not privy to a specific instance that said that it 
would require a tethering process.
    Mr. Bright. Would there be a way that you could look into 
that and see if that is problem or if there have been problems 
in the past and let us know?
    Colonel Reap. Absolutely, sir. We will accept that for the 
record.
    [The information referred to can be found in the Appendix 
on page 45.]
    Mr. Bright. Madam Chairman, I yield back.
    Ms. Sanchez. Thank you, Mr. Bright.
    And I was privy to that information also from our colleague 
who said that the soldier basically said, I would prefer a 
slower aircraft rather than to have to sit there dangling, with 
three people at the bottom of the line to secure me down. So we 
might look and see if that is happening more than once.
    Mr. Reid. If I may, I heard the same. I have not witnessed 
this. It seems very logical to me that the downwash--and this 
is really, I think, a fast roping. I don't know that we are 
even rappelling, a little bit different. But the way that we 
are rigging these to drop the rope out, with the wash that is 
created, it pushes the rope out to the side and, you know, you 
are supposed to slide down like a fire pole.
    But I would say that this is a problem that I am sure if we 
decide we need to continue fast-roping out of CV-22s, we will 
figure out, much like we figured out how to do things out of 
53s and 47s. It is new. It wasn't a cornerstone of the fielding 
of the 22 that we would use it for a rope platform, but you 
don't have to have a piece of gear around a SOF guy very long 
before someone is trying something different.
    So I think in the innovation and adaptation realm, we will 
find a way around this if we choose to keep doing it. It is 
unfortunate that the gentleman had a bad experience. But I 
would imagine it is something that someone is out there 
figuring out a better way to do it, and we will overcome this. 
I think it is just a newness factor more than anything else.
    Ms. Sanchez. Great. We will plot that as one of the 
correlation points to see if it is a problem.
    Mr. Kline, do you have any further comments.
    Mr. Kline. No, Madam Chairman. Just thanks again to the 
witnesses.
    Ms. Sanchez. Then I thank the witnesses for being before 
us. As you know, we will have some questions, probably in 
written form, coming forward from the rest of the members and 
maybe from the current members before you. We would ask that 
you answer them quickly.
    And with that, the subcommittee hearing is over, and we are 
adjourned.
    [Whereupon, at 3:33 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             April 27, 2010

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 27, 2010

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T8310.001
    
    [GRAPHIC] [TIFF OMITTED] T8310.002
    
    [GRAPHIC] [TIFF OMITTED] T8310.003
    
    [GRAPHIC] [TIFF OMITTED] T8310.004
    
    [GRAPHIC] [TIFF OMITTED] T8310.005
    
    [GRAPHIC] [TIFF OMITTED] T8310.006
    
    [GRAPHIC] [TIFF OMITTED] T8310.007
    
    [GRAPHIC] [TIFF OMITTED] T8310.008
    
    [GRAPHIC] [TIFF OMITTED] T8310.009
    
    [GRAPHIC] [TIFF OMITTED] T8310.010
    
    [GRAPHIC] [TIFF OMITTED] T8310.011
    
    [GRAPHIC] [TIFF OMITTED] T8310.012
    
    [GRAPHIC] [TIFF OMITTED] T8310.013
    
    [GRAPHIC] [TIFF OMITTED] T8310.014
    
    [GRAPHIC] [TIFF OMITTED] T8310.015
    
    [GRAPHIC] [TIFF OMITTED] T8310.016
    
    [GRAPHIC] [TIFF OMITTED] T8310.017
    
    [GRAPHIC] [TIFF OMITTED] T8310.018
    
    [GRAPHIC] [TIFF OMITTED] T8310.019
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             April 27, 2010

=======================================================================

      
              RESPONSE TO QUESTION SUBMITTED BY MR. BRIGHT

    Colonel Reap. The tilt-rotor design of the CV-22 creates prop-rotor 
downwash that is different and greater than that of a helicopter of 
comparable size and weight. This difference is most notable during 
initial deployment of the fast rope when the rope does not hang 
completely vertical. This condition exists until the first person 
descends the rope under the supervision of the Flight Engineer when the 
weight of the individual causes the rope to straighten out just like a 
fast rope from a helicopter. Most teams use the technique of having 
each person hold the rope until the next in line has descended \2/3\ of 
the distance to the ground. This technique adds only a few seconds for 
a practiced team. The HQ AFSOC Evaluator Flight Engineer has conducted 
in excess of 100 fast rope iterations in the CV-22. His experience 
consistently demonstrates that after initial deployment the rope 
remains vertical and stable as long as the rope supports the weight of 
at least one person. [See page 18.]
                                 ______
                                 
             RESPONSES TO QUESTIONS SUBMITTED BY MR. KLINE

    Colonel Reap. I think payload was actually ``PaveLow.''
    In FY2000, USSOCOM had a total of 43 MH-53J/M ``PaveLow'' aircraft 
in its inventory. Of those 43 aircraft, 30 were mission aircraft, the 
remainder were for institutional training and back up aircraft 
inventory. [See page 16.]
    Colonel Reap. In FY2000, USSOCOM had a total of 43 MH-53J/M 
aircraft in its inventory. Of those 43 aircraft, 30 of them were 
mission aircraft, the 30 mission aircraft were crewed by approximately 
46 aircrews organized in three operational squadrons. There was a 
fourth squadron that formed the institutional training base, located at 
Kirtland, NM; its 5 aircrews operated the training aircraft in AFSOC's 
inventory of MH-53J/Ms. In FY2000, there were approximately 1,658 
airmen in the MH-53J/M organizations.
    At present time, USSOCOM has some 13 CV22 aircraft in its 
inventory. They are organized into two operational squadrons and one 
training squadron including 26 aircrew total. Of the 13 CV22, 5 are 
located at Kirtland, NM; 5 aircrews there operate these training 
aircraft, training new CV22 pilots for AFSOC. At present there are 
approximately 533 airmen in the CV22 organizations.
    At the end of the FYDP, the USSOCOM CV22 program will include 50 
CV22 in its inventory. They will be organized into 4 operational 
squadrons and one training squadron with 86 aircrew total. Of the 50 
CV22, 6 will be located at Kirtland, NM; 6 aircrews there operate the 6 
training aircraft, training new CV22 pilots for AFSOC. The CV22 program 
will have approximately 1,692 airmen when it is fully fielded at end of 
the FYDP. [See page 16.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 27, 2010

=======================================================================

      
                   QUESTIONS SUBMITTED BY MS. SANCHEZ

    Ms. Sanchez. From SOCOM and OSD's vantage point, once supplemental 
funding goes away (by fiscal year 2012 and beyond, for example) are the 
services going to be able to absorb SOCOM rotary-wing requirements? 
What are SOCOM and SO/LIC doing now to address the issue and to ensure 
that requirements are met?
    Mr. Reid. OSD is working closely with USSOCOM to address the 
challenge of transitioning those enduring rotary-wing activities, which 
are currently funded through supplemental appropriations, into the 
baseline budget. The full extent to which USSOCOM will be able to 
absorb these activities is still undetermined. We do not anticipate any 
reduction in USSOCOM requirements. Service enablers will continue to 
play an important role in USSOCOM operations.
    Ms. Sanchez. The 2010 QDR clearly envisions a greater role for 
Special Operations Forces in peacetime partnership operations, security 
force assistance, and foreign internal defense. Given that, how will 
you carry out these expanded missions with the current fleet of 
aircraft? What other platforms do you require?
    Mr. Reid. There is already a planned expansion of the 6th Special 
Operations Squadron, Air Force Special Operations Command's Aviation 
Foreign Internal Defense (AvFID) unit, as it adds an additional six 
pilots for rotary-wing AvFID. Specific to rotary-wing aviation, the 
expansion of this unit will require adding two Mi-17s to the unit's 
current inventory of four leased Mi-17 aircraft. Further expansion of 
DoD's rotary-wing security force assistance (SFA) ability is being 
examined through the Non-Standard Rotary-Wing (NSRW) study, and initial 
indications are that the Mi-17, light utility aircraft like the Huey 
II, and aircraft already used by DoD make up the predominant aircraft 
DoD needs to operate in order to be effective for these types of 
missions in the future. Peacetime partnership operations, SFA, and 
AvFID missions are important part of U.S. engagement with partner 
nations; however, these missions are not unique to SOF aviation and can 
be also conducted by our general purpose forces (GPF) where 
appropriate.
    Ms. Sanchez. Please describe in detail the specific changes that 
have been made to maintenance, training, and force structure since 2008 
to improve availability of rotary-wing aircraft in support of Special 
Operations Forces in OIF/OEF.
    Mr. Reid. There have been increases in authorized aircrew manning 
for USSOCOM in the range of 5 percent to support additional manpower 
structure and airframes. In the training base, there has been a 12 
percent increase in airframes as well as increases in training of 
pilots including 20 additional Army SOF aviators and more than 300 Army 
aviators through the basic training pipeline for 2010.
    Continued fielding of the MH-47G has also allowed for the expansion 
of the number of MH-47Gs continuously deployed while we are also 
drawing benefit from the continued addition of modified MH-60 aircraft. 
The addition of AFSOC's new CV-22 aircraft also provides some SOF-
unique medium/heavy-lift rotary-wing capability to the theater. This 
capability will continue to increase as we procure five more CV-22s 
with the FY11 budget, which brings us closer to our goal of 50 total 
CV-22s by FY16.
    Efforts to build two additional conventional Combat Aviation 
Brigades and ensure three are present in theater will result in 
substantially more airlift for both SOF and GPF forces. The Naval 
Special Warfare Unit will also see an increase in support with the 
addition of two Navy H-60 units.
    Ms. Sanchez. Are there any outstanding or unfulfilled Requests for 
Forces (RFFs) for rotary-wing and vertical lift capabilities in support 
of SOF in the CENTCOM AOR? Are there other outstanding or unfulfilled 
RFFs for rotary-wing and vertical lift capabilities for SOF outside of 
CENTCOM?
    Mr. Reid. Any outstanding or unfulfilled RFFs in support of SOF 
would need to be provided to you through classified means. I will work 
with the Joint Staff and USSOCOM to provide those to you through the 
proper channels.
    Ms. Sanchez. Please provide the Review of Helicopter Assets (ROHA), 
as referenced in official testimony, to the committee. Please provide 
to the committee the anticipated timeline until the current ROHA is 
updated.
    Mr. Reid. I understand that the Review of Helicopter Assets (ROHA) 
was completed by the Joint Staff and an update could be coordinated 
through the Joint Staff.
    Ms. Sanchez. A recent U.S. European Command press release 
highlighted a Special Operations program to train the Croatian Air 
Force and improve their rotary wing capabilities. In addition to 
Croatia, are there similar initiatives underway to work with other 
allied nations? Please provide an overview of similar initiatives.
    Mr. Reid. There are numerous countries within NATO like Croatia 
that are capable of contributing to ISAF with rotary-wing aircraft. 
Many of the countries willing to contribute, however, fly Mi-17 
aircraft, which need upgrades and improvements to make them effective 
enough to support the ISAF mission. I understand previous exercises 
have focused on night-vision goggle (NVG) training for Croatian and 
Hungarian pilots, and next year there are tentative plans to work with 
Croatia, Hungary, and the Czech Republic. Special operations personnel 
are also working with Yemen and Pakistan to expand their rotary-wing 
capabilities. These activities to enhance partner nation rotary-wing 
capabilities are important. Any measures to encourage partner nation 
participation in the ISAF mission or other U.S. efforts can be 
extremely valuable.
    Ms. Sanchez. When you consider the shortfalls in Afghanistan that 
have been discussed, do you see this as a theater-specific issue or are 
there larger force structure problems that SOCOM and OSD are working to 
address? What is the current percentage of unfulfilled rotary-wing 
requests by CJSOTF-A and other SOF elements in Afghanistan? Has this 
improved over the last 12 months and how are you measuring progress? 
Please outline and provide to the committee metrics on unsourced demand 
for rotary-wing and vertical lift assets in Afghanistan.
    Mr. Reid. The unique nature of the environment and the threat in 
Afghanistan expand the need for rotary-wing lift within that country 
well beyond what we would encounter in most countries, the current 
percentage of unfulfilled rotary-wing requests by CJSOTF-A and other 
SOF elements would need to be provided to you through classified 
channels. I can coordinate with USSOCOM and the Joint Staff to provide 
that information to your staff. I understand that the influx of rotary-
wing assets into the theater has substantially decreased the percentage 
of unfilled requests.
    Ms. Sanchez. From OSD's standpoint, looking out through the future 
year defense plan and into fiscal year 2015, what are some of the 
largest challenges with this issue? How are we coordinating with the 
Services and making sure that SOCOM has the platforms needed?
    Mr. Reid. The largest challenge is building the force structure of 
pilots and crew members in concert with the acquisition strategy for 
the aircraft required for missions. The ability to produce 
appropriately trained and experienced SOF aviators is constrained by 
time, and this must be considered when adding additional aircraft. This 
process is coordinated between USSOCOM and the Military Departments 
during the budget process as USSOCOM builds its budget plan.
    Ms. Sanchez. A 2007 report from the Center for Strategic and 
International Studies entitled Special Operations Forces Aviation at a 
Crossroads recommended that the Secretary of Defense and Congress 
create an independent commission to provide recommendations for 
expanding SOF aviation to meet the needs of a bigger SOF force, and to 
provide solutions regarding force structure. Would such a commission 
help and provided needed solutions and a roadmap?
    Mr. Reid. It would be difficult for me to know if a potential 
outside look at SOF aviation through an independent commission would 
provide worthwhile solutions or recommendations with regard to the 
Department's SOF aviation force structure. As you are aware, SO/LIC&IC 
within OSD Policy provides the oversight function for USSOCOM. We work 
hard to ensure that we independently examine all appropriate force 
structure options available to USSOCOM and the Military Departments 
within reasonable force and resource constraints. The current 
projection to continue USSOCOM growth at approximately 3-5 percent per 
year is a reasonable, sustainable goal. The projection is appropriately 
matched with planned added resources while at the same time developing 
a special operations-trained force to man these platforms. It is 
important that we adhere to our SOF truths, including ``Humans are more 
important than hardware'' and ``SOF cannot be mass produced,'' when 
considering whether and how to develop a bigger SOF aviation force.
    Ms. Sanchez. Mr. Robert Martinage appeared before TUTC in 2009 
while he was with the Center for Strategic and Budgetary Assessments 
(CSBA) and recommended to the committee that SOF create at least two 
additional SOF rotary-wing battalions over the next five years to 
address shortfalls. What is SO/LICs current assessment of required 
growth over the next five years, and do we need an additional two SOF 
rotary-wing battalions over the next five years as was discussed last 
year?
    Mr. Reid. I appreciate Mr. Martinage's assessment in March 2009 
while he was a Senior Fellow at CSBA. I understand that USSOCOM 
examined his recommendations and considered them as it began to expand 
the MH-47G fleet and looked to add additional capability such as the 
direct support relationship with two Navy H-60 units. In his testimony, 
Mr. Martinage highlighted the challenges of recruiting and training an 
appropriate special operations aviation regiment (SOAR) force, and 
these considerations should not be lost when discussing appropriately 
expanding any SOF aviation capabilities.
    The Army's establishment of two more conventional Combat Aviation 
Brigades will support the GPF and SOF units in theater. From 2008 to 
2010, there has been a sizeable increase in the rotary-wing lift 
capabilities provided to SOF. As operations in Iraq begin to scale 
back, aviations units are properly reset, and planned procurements are 
complete, there will be more lift available to meet worldwide 
requirements. The current planned increases in SOF aviation coupled 
with these increases in SOF enablers make it unnecessary to build two 
additional SOF battalions over the next five years.
    USSOCOM's force structure is balanced to meet the diverse 
requirements across the command, and it could not absorb an additional 
growth of two battalions within five years.
    Ms. Sanchez. Please describe the recommendations outlined within 
the Review of Helicopter Assets (ROHA). Please outline any courses of 
action (COA) that may have been recommended, and any COAs taken by the 
Department.
    Mr. Reid. I understand the Review of Helicopter Assets (ROHA) was 
completed by the Joint Staff, and it would be best to coordinate an 
update through the Joint Staff. The ROHA was a Joint Staff internal 
assessment of rotary-wing inventory and utilization. It was not a 
decision brief that recommended courses of action.
    Ms. Sanchez. What options exist regarding the conversion of 
National Guard or Reserve Component assets to help fill rotary-wing and 
vertical lift requirements? Have these options been studied? What (if 
any) conclusions were drawn or courses of action outlined?
    Mr. Reid. The Joint Staff conducts Annual Force Sufficiency 
Assessments to determine Force Structure shortfalls, active component/
reserve component balance, and Programmatic Requirements. Current 
planned growth in Army Combat Aviation Brigades is sufficient to meet 
foreseeable requirements.
    Ms. Sanchez. Are there any options that exist to increase current 
production or acquisition timelines to improve vertical lift 
capabilities?
    Mr. Reid. I am not aware of options that exist to increase current 
production or acquisition timelines to improve vertical lift 
capabilities in the near term. If there were such cases, however, they 
would need to be closely tied to our ability to produce the 
appropriately trained and experienced aircrews for those platforms. The 
current timelines USSOCOM has developed for acquisition are coordinated 
with the Army's ability to train new pilots and crewmembers and 
USSOCOM's ability to ensure it has properly trained and experienced SOF 
aviators available to employ the aircraft.
    Ms. Sanchez. Are there any contract options that exist to support 
rotary-wing and vertical lift requirements for OEF/OIF, or other areas?
    Mr. Reid. I am aware that there are some contract options that 
exist to support lift requirements for OEF/OIF, though USSOCOM does not 
have any contracts for rotary-wing support in OEF/OIF. In some cases, 
these are fixed-wing aircraft, which can conduct some movement 
missions, but do not replace the need for rotary-wing aircraft. At 
times and when appropriate, these contracts can help in offsetting the 
demand placed on conventional rotary-wing aircraft. Contracted rotary-
wing/vertical lift or even Short Takeoff and Landing (STOL) fixed-wing 
support is a feasible answer to many of the routine logistics and 
transportation requirements in theater, but contracted support is not 
viable for SOF mission support. In most cases, contract rotary-wing 
support options are not suitable for operational use in Iraq or 
Afghanistan. However, contractor support and coalition-contributing 
nation support for security force assistance training in aircraft like 
the Mi-17 are viable options.
    Ms. Sanchez. From SOCOM and OSD's vantage point, once supplemental 
funding goes away (by fiscal year 2012 and beyond, for example) are the 
services going to be able to absorb SOCOM rotary-wing requirements? 
What are SOCOM and SO/LIC doing now to address the issue and to ensure 
that requirements are met?
    Colonel Reap. USSOCOM does not anticipate reduction in the 
Geographic Combatant Command requirements for Special Operations Forces 
(SOF), including deployment to Iraq and Afghanistan, even though 
wartime supplemental funding may no longer exist beyond present level 
of Iraq and Afghanistan operations. We are working closely with the 
Department to address these fiscal challenges in FY 2012 and beyond. 
The Department fully recognizes and supports this need and has 
initiated actions to address the shortfall. Work and coordination with 
the services will continue for the SOF enabling capabilities to include 
general purpose force rotary wing support of deployed SOF. Requirements 
for those levels of support are unclear at this point as the planning 
process is ongoing and many variables remain undefined.
    Ms. Sanchez. The 2010 QDR clearly envisions a greater role for 
Special Operations Forces in peacetime partnership operations, security 
force assistance, and foreign internal defense. Given that, how will 
you carry out these expanded missions with the current fleet of 
aircraft? What other platforms do you require?
    Colonel Reap. Special Operations Forces has historically worked 
with partner nations to support training events and operations. The 
fleet of Rotary Wing aircraft we have programmed provides us with the 
capabilities we need, but we are always looking for ways to improve and 
meet the emergent requirements of the nation. We are planning to expand 
the 6 Special Operations Squadron, the only unit dedicated to aviation 
Security Forces Assistance, and purchase an additional 2 medium lift 
helicopters to augment the 4 Mi-17's we currently lease. These aircraft 
will provide us with the ability to train at home on aircraft we 
anticipate flying overseas while we build partner capacity of partner 
nations.
    Ms. Sanchez. Please describe in detail the specific changes that 
have been made to maintenance, training, and force structure since 2008 
to improve availability of rotary-wing aircraft in support of Special 
Operations Forces in OIF/OEF.
    Colonel Reap. USSOCOM has been aggressively pursuing a number of 
initiatives to improve Special Operations Aviation availability for 
SOF. We have realized a 5% increase in authorized aircrew and realigned 
airframes to provide a 12% increase of aircraft in the training base.
    In coordination with the Army, there were a number of personnel 
initiatives to attack the recruiting and retention challenges for our 
specially trained aircrews. The Army has increased the number of 
recruiters and provided policy changes that provide increased 
recruiting opportunities and a greater pool of potential applicants. We 
added a bonus for candidates that complete special operations aviation 
qualification training. Working with the Army in an effort to decrease 
attrition through retirement, we also expanded a bonus program designed 
to retain our most experienced pilots.
    The training company was expanded to a Special Operations Aviation 
Training Battalion to provide greater control over the numerous 
programs of instruction. These programs of instruction have been 
formalized with the US Army's Training and Doctrine Command and 
personnel management systems. Continued fielding of MH-47G has 
increased the number of continuously deployed aircraft from 6 to 12 MH-
47Gs in OEF and we perform the major scheduled maintenance on the 
deployed aircraft in the US, ensuring that the aircraft we can deploy 
are available for greater periods of time.
    Ms. Sanchez. Are there any outstanding or unfulfilled Requests for 
Forces (RFFs) for rotary-wing and vertical lift capabilities in support 
of SOF in the CENTCOM AOR? Are there other outstanding or unfulfilled 
RFFs for rotary-wing and vertical lift capabilities for SOF outside of 
CENTCOM?
    Colonel Reap. Yes to first question; no to second question. Details 
to further address this question can be provided via separate 
correspondence that is classified SECRET with caveat.
    Ms. Sanchez. Please provide the Review of Helicopter Assets (ROHA), 
as referenced in official testimony, to the committee. Please provide 
to the committee the anticipated timeline until the current ROHA is 
updated.
    Colonel Reap. ROHA was completed by the Joint Staff and provided a 
brief of the updated version of ROHA to HASC TUTC Staff members.
    Ms. Sanchez. A recent U.S. European Command press release 
highlighted a Special Operations program to train the Croatian Air 
Force and improve their rotary wing capabilities. In addition to 
Croatia, are there similar initiatives underway to work with other 
allied nations? Please provide an overview of similar initiatives.
    Colonel Reap. The example cited is a Special Operations Command 
Europe (SOCEUR) initiative exclusive to this theater's attempt to build 
partnership rotary wing capacity in support of International Security 
Assistance Force. SOCEUR is very active in investigating willing and 
capable nations to support International Security Assistance Force 
rotary wing capacity. Other locations that have received assessment and 
differing levels of support include; Hungry, Czech Republic, and the 
Netherlands. The 6 Special Operations Squadron remains a priority for 
USSOCOM and works with friendly nations around the world, such as 
Pakistan, to advise and train their rotary wing and fixed wing 
programs. Lastly, at a higher level, USSOCOM has taken the lead in 
assisting Poland in the standup of a POL SOCOM.
    Ms. Sanchez. I understand that SOCOM does not purchase airframes 
and platforms, but rather funds the SOF-peculiar upgrades for the 
aircraft to support SOF missions. That said, and since you are 
therefore very dependent on the Services to purchase the actual 
platforms, are the Services meeting your requirements and are their 
larger acquisition programs aligned with your priorities? How do you 
coordinate requirements with the Services?
    Colonel Reap. USSOCOM is inexorably linked with the services in the 
procurement of the majority of our airframes and platforms. USSOCOM 
achieves close coordination with each of the respective services, 
conducted through senior leader discussions held between each of the 
services and SOCOM. As well, SOCOM engages with the services through 
respective programming planning budgeting and execution process. A 
recent highlight of this ongoing process is the procurement of eight 
additional MH-47G helicopters. We continue close coordination with the 
Army as they resource the base platform and SOCOM resources the Special 
Operations Forces peculiar modifications and sustainment of its 
operation. USSOCOM and components use Joint Capabilities Integration 
Development System (JCIDS). Where the Services' existing or developing 
material solution is one that we can use or adapt to meet our 
requirements or capability gap, we use that solution and or modify the 
equipment to meet SOF peculiar requirements.
    Ms. Sanchez. If budget were no barrier, what additional resources 
would you need to execute your global mission properly?
    Colonel Reap. USSOCOM is meeting the most critical operational 
requirements for vertical lift within our capability. Owing in part to 
the threats, terrain, and geography of Afghanistan, the demand for 
vertical lift platforms continues to grow. As we expand capacity, we 
have to do it in a methodical and controlled manner to ensure we have 
the right mix of capabilities to support the requirements of the 
geographic combatant commanders and that we can continue to maintain 
the high standards that form the hallmark of Special Operations Forces. 
Rotary wing platforms are just one of the low-density, high-demand 
capabilities forces operating around the world need and every decision 
to increase in one area may mean accepting tradeoff in another. 
USSOCOM's Strategic Planning process takes into account the force as a 
whole, optimizing growth and operational capacity. With continued 
support of the committee, USSOCOM will continue to meet its global 
requirements.
    Ms. Sanchez. Can you outline your required force structure for 
rotary-wing requirements--and compare that to your programmed force 
structure? In other words, are you getting everything you need?
    Colonel Reap. Through the generous support of this committee, we 
continue to receive the resources necessary to conduct our global 
mission and increase capacity where warranted, while closing capability 
gaps identified through continuing analysis. Our programmed rotary wing 
force structure reflects our required rotary wing capability. Growing 
the capacity of our rotary wing lift and the force structure is on pace 
to grow at a maximum rate factored to preserve the quality and level of 
expertise, with skill sets necessary for special operations aviation 
missions and support of our special operations land and maritime 
forces.
    Ms. Sanchez. On average, how many aircraft are lost each year 
because of training accidents or battle damage? Does program growth 
take these losses into consideration? How do you re-coop these losses? 
Is this funded through overseas contingency operations (OCO) funding?
    Colonel Reap. Since 2001, the average is about two rotary wing 
aircraft lost per year. Program growth in rotary-wing portfolios does 
not include replacement of projected losses. USSOCOM utilizes 
supplemental requests or Congressional unfunded requests to address 
resourcing effort required to restore lost aircraft inventory.
    Ms. Sanchez. Admiral Olson has testified that more than 80 percent 
of deployed Special Operations Forces (SOF) are within U.S. Central 
Command's area of responsibility. Is that statistic the same for SOF 
rotary-wing assets? Are 80 percent of those deployed assets also within 
U.S. Central Command, and if so, how are we managing the growing global 
requirements for SOF in the Horn of Africa, for example?
    Colonel Reap. Since 9/11, about 30 percent of the entire SOF rotary 
wing inventory has been continuously deployed to the CENTCOM AOR, and 
another 10 percent on top of that has been on an alert posture with a 
very finite window for it to be recalled. That constitutes more than 
90% of the deployed SOF rotary wing force being deployed to CENTCOM. 
However, with continued execution of programmed growth of SOF RW, 
modernization of the SOF Rotary Wing fleet, and through prioritization 
processes like Global SOF Management Conference, we are able to deploy 
SOF Rotary Wing forces out to other theaters based consistent with 
Department's priorities. An example was last year's FLINTLOCK exercise 
in AFRICOM, where the CV22 made its first operational deployment. With 
SOF Rotary Wing, we also support exercises in SOUTHCOM and PACOM each 
year and supported a EUCOM exercise this year.
    Ms. Sanchez. In a general sense, and in terms of where SOF will be 
operating in the future, how are you planning out through 2015? I know 
that by that point operations in Iraq and Afghanistan will have 
decreased considerably, and perhaps operations in Africa will have 
increased considerably, for example. How are you planning for that? How 
do you ensure your numbers are accurate but also that the type of 
aircraft will meet the need?
    Colonel Reap. USSOCOM has a robust and mature Strategic Planning 
Process that includes a long-term mission assessment and analysis of 
future requirements. Strategic guidance forms the framework for our 
process. In coordination with the Department, tools we employ include 
the Defense Planning Scenarios, where we model and program for 
capabilities we will need in the future. Senior military judgment takes 
into account the force as a whole, optimizing growth and operational 
capacity to meet the Department's objectives.
    Ms. Sanchez. The fiscal year 2011 budget request for SOCOM rotary-
wing capabilities is approximately $365 million, which is nearly $100 
million more than was appropriated in fiscal year 2010. Yet--while the 
overall request increases--the amount of funding put into the ``rotary 
wing upgrades and sustainment programs'' line actually decreases from 
$91 million in FY2010 to $80 million in FY2011. Why this decrease of 
nearly $11 million for rotary wing upgrades and sustainment programs?
    Colonel Reap. Simply stated, the ongoing procurement and delivery 
of new aviation platforms in the form of the MH-47G and the MH-60M 
cause the overall capability cost to increase although the new aircraft 
preclude the need for near term significant upgrades or sustainment 
actions. This, coupled with the recent fielding of major upgrades such 
as the Suite of Radio Frequency Counter Measures (SIRFC) that will be 
transferred to the new aircraft, also lowers upgrade requirements.
    Ms. Sanchez. As you expand your rotary-wing aircraft numbers, are 
there anticipated MILCON requirements to go along with this? Can you 
talk about that and some of the other second and third order effects on 
the budget in the coming years?
    Colonel Reap. As we program for aviation growth, we include MILCON 
requirements in the program/budget, whether it be ramp and hanger 
space, simulators or barracks. Second order effects on the budget of 
expanding SOF rotary wing aviation include impacts on the limited ready 
space to expand on three bases where SOF Rotary Wing is stationed 
(Campbell, Lewis, and Hunter). As ramp space needed and facilities 
spaces increase, security and safety zones may require additional land 
to allow the fielding. The cost of sustaining and operating additional 
aircraft is the actual cost driver when considering growth over time 
and is a significant percentage of the SOCOM budget.
    Ms. Sanchez. Please describe SOF aviation recruitment and retention 
efforts since 2008. What recruitment and retention bonuses and options 
is SOCOM considering to improve SOF aviation manning?
    Colonel Reap. We have worked hard with the Army and, with their 
support, have identified a number of fixes that will help us meet our 
growth and required Special Operations Forces Rotary Wing aircrew 
manning. Through the Army, we have in place retention incentives and 
bonuses for SOF rotary wing aviators at critical points in their 
career. As well, more senior and experienced aviators are being 
extended in order to reduce the rate of attrition to a maximum of six 
percent. Recruiting efforts are focused on increasing the number of 
aviation warrant officer applicants and assessments. Army has directed 
its efforts through commanders of Forces Command, US Army Europe, and 
US Forces-Korea, as well publishing military personnel message to 
facilitate recruiting in deployed combat aviation brigades, National 
Guard and Army Reserve. Furthermore, the recruiting guidance aligns 
Army Force Generation cycle and assessment process and encourages 
select lieutenant and warrant officer graduates of Initial Entry Rotary 
Wing training (flight school). The overall recruiting and retention 
efforts to increase the manning of the 160th Special Operations 
Aviation Regiment extend into growth and training capacity of the 
Special Operations Aviation Training Battalion at Fort Campbell, KY.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
